No. 20-7163
In The
Supreme Court of The United States
GABRIEL Z. KERSHAW

*

vs.
UNITED STATES

*
*

No.

PROOF OF SERVICE
I hereby certify that on this 15th day of March, 2021, I have, as required by
Supreme Court Rule 29, filed and served the enclosed Supplemental Brief on each
party to the above proceedings or that party’s counsel, and on every other person
required to be served, by delivery by a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served via third-party commercial carrier
are as follows:
William Camden Lewis
OFFICE OF THE UNITED STATES ATTORNEY
1441 Main Street, Suite 500
Columbia SC 29201-2692
803-929-3062
William.C.Lewis@usdoj.gov
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Date: March 15, 2021

Respectfully submitted,
/s/ Derek J. Enderlin
Derek J. Enderlin
ROSS & ENDERLIN, PA
330 East Coffee Street
Greenville, SC 29601
(864) 710-3936
derek@rossenderlin.com
Counsel for Petitioner

